No.

 

 

IN THE
Supreme Court of the United States

JORGE GOMEZ-GOMEZ,
Petitioner
v.

UNITED STATES OF AMERICA,
Respondent

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit

Motion for Leave to Proceed In Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the petitioner,
Jorge Gomez-Gomez, asks for leave to file a Petition for Writ of Certiorari to the U.S.
Court of Appeals for the Ninth Circuit without pre-payment of fees or costs and to
proceed in forma pauperis.

The petitioner was represented by counsel appointed pursuant to 18 U.S.C.
ยง 3006A in the district court and on appeal to the Court of Appeals for the Ninth

Respectfully submitted,

\;
Date: April 16, 2021 we

Doug Keller

The Law Office of Doug Keller
2801 B Street, #2004

San Diego, California 92102
619.786.1367
dkeller@dkellerlaw.com

Counsel for Petitioner
